IN THE

$>upreme Qtourt of tbe Wniteb $>tates
No.
BANK MELLI,

Petitioner,
v.
MICHAEL BENNETT, et al.,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE
I hereby certify that on this 18th day of December, 2019, I caused three copies of
the Petition for a Writ of Certiorari to be served on the counsel of record as follows:
By overnight delivery and email to:
Jane Carol Norman
Bond & Norman Law, PC
777 Sixth Street, N.W., Suite 410
Washington, D.C. 20001
(202) 682-4100
janenorman@bondandnorman.com

Curtis C. Mechling
Stroock & Stroock & Lavan LLP
180 Maiden Lane
New York, NY 10038
(212) 806-5400
cmechling@stroock.com

Counsel for Bennett Respondents

Counsel for Greenberg and Acosta
Respondents

Ethan Miller
Baker & McKenzie LLP
Two Embarcadero Center
San Francisco, CA 94111
(415) 576-3000
ethan.miller@bakermckenzie.com

Counsel for Respondents Visa Inc. and
Franklin Resources, Inc.

Dale K. Cathell
DLA Piper LLP (US)
6225 Smith Avenue
Baltimore, MD 21209
(410) 580-4122
dale.cathell@dlapi per .com

Counsel for Heiser Respondents

Noel Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Ave., NW
Washington, D.C. 20530
(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for the United States

I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on December 18,2019.

Counsel of Reco d
MOLOLAMKEN

LP

The Watergat , Suite 660
600 New Ham shire Ave., NW
Washington, D.C. 20037
(202) 556-2000
rkry@mololamken.com

Counsel for Petitioner

2

